No.

-5512
IN THE
SUPREME COURT OF THE UNITED STATES

"In Re SHANNON RILEY"

(Your Name)

ON PETITION FOR AN EXTRAORDINARY WRIT OF MANDAMUS

IN THE SUPREME COURT STATE OF KANSAS

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

SHANNON RILEY
(Your Name)
1368 SMITHS LAWN
(Address)
AIKEN, SC

29801

(City, State, Zip Code)
(815)

814-5179

(Phone Number)

FILED
AUG 1 0 2021
OFFICE OF THE CLERK
SUPREME COURT. LJ.s

QUESTION(S) PRESENTED

1.

2.

Did the filing of a nunc pro tunc journal entry
correcting default judgment filed as a final
order of judgment impeach due process.
foreign judgment in
filincr to execute a Kansas
South Carollnl prior to adjudication of the appeal m
Kansas impeach due process?
\

3.

fhe execution of a Kansas foreign judgment
Doessouth Carolina prior to the issuance of a
in
mandate in Kansas impeach due process.

4.

rul^enrfnlou^cfrorinf life? the issuance

Kansas foreign

of a mandate in Kansas impeach due process?
5.

Did the filing of a sworn affidavit to execute
a Kansas foreign judgment m South Carolina
orior to the issuing of a mandate m Kansas
impeach due process?
______________

LIST OF PARTIES

E- ] All parties appear in the caption of the case on the cover page.
IX All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
Dione Carrol, Esq.
Carroll Law Offices, P.A.
107 Pendleton St N.W.
Aiken, SC 29801

The Honorable Clifton Newman
Circuit Court Judge
Aiken Court of Common Pleas
109 Park Av S.E.
Aiken, SC 29801

i

RELATED CASES
IN THE DISTRICT COURT OF JOHNSON COUNTY, KANSAS
CARRIE KATHLEEN MEEHAN,vPEANTTFF vISHANNON RILEY, DEFENDANT
Case No.
18CV00490
Division No. 11
IN THE COURT OF APPEALS OF THE STATE OF KANSAS
CARRIE KATHLEEN MEEHAN, APPELLEE V SHANNON RILEY, APPELLANT
Case Np. ^22,380 "A"
.

.O

IN THE SUPREME COURT STATE OF KANSAS
CARRIE KATHLEEN MEEHAN, APPELLEE, SHANNNON RILEY, appellant
MEEHAN, RESPONDENT
KAN R APP P 803 A SUMMARY PERITION FOR REVIEW
CASE NO., 122, 380 "A"
CARRIE KATHLEEN MEEHAN, PLANTIFF V SHANNON RILEY, DEFENDANT
State of South Carolina, County of Aiken In the Court
of Common Pleas, Case No, 2019CP0200950
IN THE'SUPREME COURT OF THE STATE OF SOUTH CAROLINA
-SHANNON RILEY, PETITIONER, CARRIE KATHLEEN J&EEH&N,
RESPONDENT, Appellate Case No. 2019-0 ;1987.
SUPREME COURT OF THE UNITED STATES
592 U.S. Case No. 20-6501
SHANNON RILEY, PETITIONER V CARRIE KATHLEEN MEEHAN, RESPONDENT

TABLE OF CONTENTS

1

OPINIONS BELOW

2

JURISDICTION

3

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

4-8

STATEMENT OF THE CASE........

9-16*

REASONS FOR GRANTING THE WRIT

i-n

. 17.

CONCLUSION

tr

INDEX TO APPENDICES
APPENDIX A
MEMORANDOM OPINION-Kansas Court of Appeals Meehan v Riley
#122380 9/25/20
'

APPENDIX B

ORDER-Kansas Court of Appeals Denying motion for rehearing/
modification and motion to amend previous motion for rehearing/
modification.
Meehan v Riley #122380^10/20/20

APPENDIX C
ORDER-Kansas Supreme Court denying motion for reconsideration
and order denying motion to transfer from Court of Appeals
to Supreme Court Meehan v Riiey #122380 10/20/20

appendix d
SHOW CAUSE ORDER-Kansas Court of Appeals >,
Meehan v Riley #122380 8/31/20

APPENDIX E

ORDER-Supreme Court of Kansas 8/5/21
Denying Kan R App P 803 A Summary
Petition for Review filed 10/1/20
Meehan v Riley.#122380
‘ Recusal of Justice J. Standndge

APPENDIX F

ORDER-District Court Johnson County, Kansas
Journal Entry Granting Default Judgment
Meehan v Riley #18CV490 12/3/18
(i)

I^IDEX TO APPENDIXES (Con't)

APPENSIX G
APPENDIX H
APPENDIX I
APPENDIX J

APPENDIX K

ORDER-District Court Johnson County, KS
Nunc Pro Tunc Journal Entry Correcting Default Judgment
Meehan v Riley #18CV490 1/15/19
ORDER-District Court jonnson ouunty, KS
Order of Final Judament_ Meehan v Riley #18CV490 12/5/19
'KANSAS APPELLATE COURTS
Case Search Result .
AFFIDAVIT OF DIONE C. CARROLL
Executing Kansas Foreign Judgment in South Carolina
Meehan v Riley #2019CP0200950 4/19/19
filed in Aiekn Court of Common Pleas
MANDATE Kansas' Court of Appeals 8/18/21

APPENDIX L

Aiken S.C. Court of Common Pleas - Judgment 2/3/20
Meehan v.,Rilgy„ .#2019CP-0200950

APPENDIX M

Supreme Court of S.C. ORDER 11/4/20
Riley v Meehan Petition for Writ of Mandamus
Appellate Case No 2020-000228

APPENDIX N

Supreme Court of S.C. 11/17/20
Appellate Case No 2020-000228
Ltr denying petition for rehearing
Shannon Riley v Carrie Kathleen Meehan

TABLE OF AUTHORITIES CITED

PAGE NUMBER

CASES

Unified School District 446, Independence, KS v
Deborah L Sandoval, Supreme Court of KS Case No 101, 145

10

Steele v Harrison, 220 Kan 422 , 428 552 P 2d 957 (1976)., • - * 11
11
Nelson
248
Kan
575-,
580
809
?
2d
1194
(1991)
.
.
Albers v
4
481
203
P
2d
201
(1949)....................
Hins'haw v Hinshaw 166 Kan
4
150
P2d
168
..............................................
Bush v Bush 158 Kan 760,
13
Nordstrom v Miller 227 Kan 59 Syl 6, 605 P 2d 543 (1980)
McGrath 341 US 123 162-163..--®
Joint Anti-Facist Refugee Committee v
8
State v Woolverton 284 Kan 59 Syl 3, 159 P3d 985 (2007)
9
82, 6-87, 132 S.E
Willimon v City of Greenville 243, S.C.
. .15 .
2d 169, 170-71 (1963)
10
Ex Parte Fahey 332 US 258 259-260....
Edwards, 383 S.C. 97, 678 S.E. 2d 42U
10
Blalock v Johnson 180 S.C. 40, 50 185 S.E.511 55 (1936)
15
US
Dist
Ctr,D.
C.
Circuit
542
US
367
(2004).........
Cheney v

STATUTES AND RULES

12

Kan R App P 803A..
foreign judgments . '6-U -

South Carolina Code
Chapter 35, section

12

45-215 et. seq
Kansas Open Records Act K.S.A.

7

60-308(b)
Kansas Long Arm Statue K.S.A.

4,9,10,15

Writ of Mandamus 28 U.S.C. 1651(a)

OTHER

Kansas Pattern of Instruction (PIK Civ 3d)
Show Cause Order...

14

5
4,5

Order Nunc pro tunc

(ii)

CASES (con't)
Kansas Med Mut Ins Co v Scaty, 291 Kan 597, 610
244 P 3d 642 (2010)
Allison v State 56 Kan App 2d 470,
P 3d 87 (2018)

STATUES

15

475, 432
■15-16

(con't)

K.S.A. 2019 Supp’.60-2101 (a) (4)

15

K.S.A. 60-1507-Rule 183

16

TABLE OF AUTHORITIES CITED - OTHER (Con't)
breach of contract

4,5

counterclaim

5

Fourteenth amendment...........

4,5,8)
12

, Article IV, Section 1

Full Faith & Credit Clause
South Carolina Foreign judgment
Statue of Frauds

11

8-10-14

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF MANDAMUS
Petitioner respectfully prays that a writ oiMandamusissue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
k ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix . A - to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
|x] is unpublished.
- Supreme Court State of Kansas

The opinion of the
__________ :________
court
appears at Appendix_5__ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
tx] is unpublished.
1.

to

JURISDICTION
t ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was______________________ _
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including_______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

£x| For cases from state courts:
8/5/21

The date on which the highest state court decided my case was
A copy of that decision appears at Appendix__ E__
m A timely petition for rehearing was thereafter denied on the following date:
and a copy of the order denying rehearing
appears at Appendix.
— see Kan R App P 803 (h) .
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28u.s.c. 1651(a)

2

ri

STATEMENT OF THE CASE
This case is filed under Supreme Court Rule 20,
whereby Petitioner seeks the extraordinary Writ of Mandamus,
28 U.S.C. 1651(a).

To justify the granting of the writ,

Petitioner must show that the writ will be in aid to the
Court's appellate jurisdiction, that exceptional circum­
stances warrant the exercise of the Court's discretionary
powers, and that adequate relief can not be obtained in
any other form or from any other court.
This case relates directly to the impeachment
of Petitioner's due process under the fourteenth
amendment when Respondent filed a nunc pro tunc^*
journal entry correcting default judgment as an
an order of final judgment to execute a Kansas
foreign judgment in South Carolina prior to the^issuance
of a mandate by the Kansas Court of Appeals.
Respondent filed suit in Johnson County District Court
on 1/29/18.

A sworn affidavit was filed alleging breach

of contract regarding Petitioner's sale of two Irish sport
horses.

Also alleged breach of fudiciary duty, wrong-

fully converting funds and fraud.
1.

The court found subject

5he function of an order nunc pro tunc
is to correct the record of a judgment
bv entenng^^
entering now ^
for then
anmake
order&n order
by
^ ^
previously
Hinshaw v Hinshaw
now for then. see
It' s
203
P2d
201 (1949).
166 Kan 481
not
to
alter
a
judgment
function is
rendered by merely to correct the
record of a judgment impropely recorde .
Bush 158 Kan 760, 150 P 2d 168.
see Bush v
4.

matter jurisdiction and venue proper a granted default
judgment and awarded actual damages of $45,000 and punitive
damages of $90,000, totaling $120,000.

On 12/3/18 (APX F)

a journal entry granting default judgment was filed.

On 1/15/19,

(APX G) a nunc pro tunc journal entry was filed correcting
damages only.

On 12/5/19 a order of final judgment was issued

(see appendix H) . In the order 93}’ fetates, "The nunc pro
tunc journal entry correcting default judgment consistent
with the order of the court, entered January 15, 2019,
constitutes a final order because it disposed of the
action as to all claims by all parties and no appeal
was taken during the statutory deadline."
In the 9/25/20 Memorandum Opinion of the Kansas Court
of Appeals (see appendix A> states, "In January 2019, the
district court entered an order nunc pro tunc adding
pre-judgment interest, which has been omitted from
the original journal entry of judgment in favor of
Meehan on her claim against Riley. AT NO TIME HAS
THE DISTRICT COURT TAKEN ACTION ON RILEY'S COUNTER­
CLAIM AGAINST MEEHAN. THE COUNTERCLAIM REMAINS PENDING, pg 3.
(see appendix D-Show Cause Order-Court of Appeals)
pg 1, "Based upon this court's review of the record
it appears that appellant's counterclaim for breach
of contract is outstanding, The district court's
grant of default judgment orders only "Plantiff Carrie
Kathleen Meehan is granted judgment against Defendant
Shannon Riley in the amount of $40,000 in actual
damages, pre-judgment interest attthe statutory
rate on the actual damages of $40,000, $80,010 in
punitive damages, postjudgment interest at the
statutory rate, and the Cost of the Action."
Respondent filed the 1/15/19 pro nunc tunc journal entry
correcting default Judgment as to damages, as an order of
final judgment to execute the Kansas foreign Judgment in

5.

' a';

2.
Aiken Court of Common Pleas as Case #2019CP0200950 with
a sworn affidavit of Dione C Carroll on 4/19/19, swearing
Peiitioner as a judgment debtor and that there are "no
pretrial motions pending in JohhsonnCounty District Court."
When in fact Petitioner filed her appeal from the
order of final judgment on 1/16/20 (APX I) and the mandate
rfAEXaKfc in this case was issued by the Kansas Court of
Appeals on 8/18/21, 28 months after the filing of
a sworn affidavit on 4/19/19 to execute the Kansas
foreign judgment in South Carolina that thete were
"no pretrial motions pending in Johnson County District Court."
Pursuant to South Carolina Code of Laws, Title 15,
Chapter335, Section 15-35-920, (B),"Upon the filing of the
foreign judgment and the affidavit, the foreign .
judgment must be docketed and indexed in.the same
manner as a judgment of this State; however no foreign
judgment may be indexed if contested until resolved
and no execution may issue upon the foreign judgment
nor may any other proceeding be taken for its enforcement
until the expiration of thirty days from the date
of opinion which notice of filing is served in acc­
ordance with Section 15-35-930."
r

2.

On 2/3/20, a Motion for Reconsideration (SPXrL),, ;.Qn
executing the foreign judgment was denied and
judgment entered, this 18 months prior to the
issuance of a mandate by the Kansas Court of Appeals.
On 11/4/20, The Supreme Court of South Carolina'
(APX M), Case No.22020-000228, declined to entertain
Petitioner's Writ of .Mandamus in it's original
jurisdiction. On 11/17/20 the Court declined
a motion for rehearing (APX N). This, 9 months
prior to the issuance of the Kansas mandate on
8/18/21.

6-

JURISDICTION
The two Irish sport horses (CRUZ & LIEUTENANT DAN)
were given to Petitioner to board/train/sell in South
Carolina.

PETITIONER HAS NEVER BEEN IN KANSAS or

beeniifcvdlved in the commission of a tortious act in Kansas.
Personal jurisdiction requires a two-step anaylsis
to determine if a Kansas court has jurisdiction..
First, the court must determine if Kansas statues or
case law provide a bahis for the exercise of jurisdiction
over a particular defendant.

Second, if statutory and

other requirements are satisfied, the court inquires
if the exercise of personal jurisdiction complies
with the due' process requirements of the Fourteenth,
Amendment' of the United States Constitution.

see Merriman

v Crompton Corp Supreme Court of Kansas 433 (Kan 2006) .
The- District Court lacked the authority
to hear this case under Kansas long arm
statue K.S.A. 60-308(b), due process requires
that the nonresident defendant hasje dertain
minimum contacts with the forum in order of
the exercise of jurisdiction to be constitutional
t

-.i

see Merriman.v Crompton Corp 282 Kan 433 (Kan 2006)
Additionally Kansas Long Arm Statue
60-308(b)(1) &- (2) Submitting to jurisdiction requires
(1) transaction of any business within this state
(2) commission of a tortious act within' this' state
7.

/.

Questions of subject matter jurisdiction raise issues
of law reviewable de novooon appeal.
284 Kan 59 Syl 3, 159 P 3d (2007).

see State v Woolverton
Yet, the Memorandum

Opinion, pg 3, '(APX A), states, "Accordingly, there has
been no final decision that disposes of all out­
standing issues in this case, As a result we have
no jurisdiction to consider this appeal and the app­
eal is dismissed."
The court further impeaching due process.
"The requirement of "due process" is not a fair
weather or timid assurance. It must be respected
in g&EiQdsT'ofrcalm/and in times of troble; it
protects aliens as well as citizens. But "due
process," unlike some leg&l-rules, is not a
technical conception with a fixed content unrelated
to time, place and circumstances. Expressing
as it does in its ultimate analysis respect
enforced by law for that feeling of just treatment
which has been evolved through centuries of
Anglo-American constitutional history and civilization,
"due process" cannot be imprisoned with the treacherous
limits of any formula. Representing a profound
attitude of fairness between man and man, and more
particularly between the individual and government,
"due process" is compunded by history, reason,
the past course of decisions, and stout confidence
in the strength of the democratic faith which we
profess. Due process is not a mechanical instrument.
It is not a yearstick. It is a delicate process
of adjustment inescapably involving the exercise of
judgment by those whom, the Constitution pntrnai-pfl
with the unfolding of the process. see Joint AntiFacist Refugee Committee v McGrath 341 US 123, 162-163.
Further, jurisdiction in this case was granted for breach
of contract.

see Memorandum Opinion, pg 1 (APX A), which

states,t "Per currium, "Carrie Kathleen Meehan commenced
an action for breach of contract and other claims
against Shannon Riley."
No contract exsists in this case as required by the
Statue of Frauds between the two parties regarding the
sale of the two Irish sport hoarse's (CRUZ & LIEUTENANT DAN) .
Further due process impeachment.

8.

v'

*

REASONS FOR GRANTING THE PETITION
EXTRAORDINARY WRIT OF MANDAMUS
28 U.S.C. 1651
Mandamus is a judicial remedy in the form of an
order from a court to any government, subordinate
court, corporation, or public authority to do some
specific act which that body is obliged under law
to do, and which is in the nature of-public duty.
and in certain cases one of a .staturory duty.
order from a court
A writ of mandamus is an
official ordering the
to an inferior government
fulfill their official
government official to propely
of discretion.
duties or correct an abuse
is the
"The writ of mandamus
law and according
highest judicial writ known to the
well established authorities,
to long approved and
where there is a specific legal
only issues in cases
where there is a position
right to be enforced or
of

duty to be performed, and there is no other

specific remedy."

Willimon v City of Greenville,

2d 169 , 170-7l: (1963) .
243, S.C. 82, 6-87, 132 S.E.
function of a writ of
The primary purpose of
1
mandamus is to enforce an
enforce a

established right, and to

corresponding imperative duty created

to or imposed by law."

Id.

"It is designed to

certain well-defined qualipromote justice, subject to
Its principal-function is to command
fications." Id.

9•

»

and execute and exercise, and not to inquire and
adjudicate, therefore, it is not the purpose of the
writ to establish a legal right, but to enforce one
which has already been established."

id.

"For a writ of mandamus to issue, the following
must be shown;
the act,

(1) a duty of the Respondent to perform

(2) the ministerial nature of che act;

(3) the Petitioner's specific legal right for which
discharge of the duty is necessary; and (4) a lack of any
other legal remedy."
2d, 420.

Edwards, 383 S.C. 97, 678 S.E.

"When mandamus is warranted, "the judiciary c

cannot properly shrink from its duty."

Id.

(quoting

Blalock v Johnson, 180 S.C. 40, 50, 185 S.E. 51, 55 (1936).
In this case, jurisdiction/venue were established
on a sworn affidavit that Peitioner breached a contract
regarding the sale of two Irish sport horses.

NO

CONTRACT EXSISTS AS REQUIRED BY U.C.C. Art 2 (Sales)
2-106 "Contract;'" Further, The statue of frauds
requires written contracts for sales of goods over $500.
The basis elements required for an agreement
mutual
to be legally femforceable contracts are;
assent, .expressed by a valid offer and acceptance,
adequate consideration, capacity, and legality.
101,145
see Supreme Court of Kansas, Case No.
Kansas
Unified School District 446, Independence,

10.

• •»

v. Deborah L Sandoval.

Syllabus by the Court

citing, in all action based on contract, the
plantiff bears the burden of proving exsistence
of the contract alleged in the petition.

see

Steele v Harrison 220 Kan 422 , 428 552 P 2d 957^ (1976) ,
In order to form a binding contract, there must
:be a meeging of the minds on all the essential
elements.

see AlbersVv Nelson 248 Kan 575, 580

809 P 2d 1194 (1991).

In this case, jurisdiction/venue, default judgment,
and execution of a foreign judgment were granted on
breach of contract.

No contract exsists to breach.

Pursuant to South Carolina law, Section 15-35-920,
Filing of foreign judgment and affidavit, (a) requires
that the affidavit'filed with the clerk states the foreign
judgment is final, and whether further contested.

Contested

judgments include notice of appeal has been filed, or an
appeal is pending.

At the time Respondent filed to

Execute foreign judgment, Petitioner's appeal had not
been filed, because the no final order in the Kansas
case had been issued.

Respondent has no legal standing

to Execute judgment and the South Carolina Court has
no subject matter jurisdiction to hear the case.
Petitioner's fourteenth amendment right to "due process"
impeached.

11.

FULL FAITH & CREDIT CLAUSE
ARTICLE IV, SECTION 1
U.S. CONSTITUTION
KANSAS OPEN RECORD ACT
K.S.A. 45-215 et. seq.

Pursuant to the Full Faith and Credit Clause of
the U.S. Constitution, Article IV, Section 1,

which addresses

duties that states within the United States have to respect
the "public acts, records and judicial proceedings of
every other state."

Here the Kansas Open Records Act,

K.S.A. 45-215 et. seq. reveal the Johnson County District
Court Records reflect a Final Order of Judgment filed 12/5/19.
Respondent's Motion to Execute Foreign Judgment, electronically
filed in South Carolina on 4/22/19, 8 months prior
to a final order in the District Court and 28 months
prior to the Kansas Court of Appeals^issuing a mandate,
ffdm^thd filing of the nunc pro tunc journal entry
correcting default judgment violates Petitioner's
fourteenth amendment right to due process of the clause.
Put another way, the public records/judicial proceedings in
\

Kansas reflect a Order of Final Judgment of 12/5/19, not 1/15/19.
(which was the nunc pro tunc journal entry filed in South
Carolina as h final order and to execute the foreign
judgment on 4/22/19).

Further, Kansas purlic records/

judicial proceedings reflect the appeal in this case
was taken on 1/16/20 (APX J) and was pending until
the Kansas Supreme Court denied Petitioner’s Kan R App
P 803 A Summary Petition for Review and the Court of
of Appeals issued the mandate on . 8/18/21.
------------------------------------------------------- --

_------------ ——n

r~n

12-

'

-

''

■■—

The outcome of Petitioner's appeal, pending for
28 months w&s Adjudicated by Respondent on 4/22/19
with the filing of the pro nunc tunc journal entry
correcting default judgment as a Order of Final Judgment
with the filing to execute the Kansas foreign judgment
in South Carolina impeaching Petitioner's due process
to procedural law under the fourteenth amendment.
ACTIONABLE FRAUD BEFORE
THE DISTRICT COURT

Pursuant to KeS.A. 60-260-(b) (3)
from .judgments or order?

(Relief

Grounds for relief

from a final judgment, order, or proceeding)-----On motion and just terms, the court may relieve a
party or its legal representative from a final
judgment, order or proceeding for the following
reasons;

fraud, whether previously called

intrinsic or extrinsic, misrepresentation or
misconduct by an opposing party.
Actionable fraud includes an untrue statement 6f fact,.
known to be untrue by the party making it, made with
the intent to deceive or recklessly made with disregard
for the truth, where another party justifiably relies
on the statement and acts to his injury."' . See Nordstrom
v Miller 227 Kan 59, Syl 6, 605 P 2d 543 (1980).

13.

Statue of Frauds requires contracts for goods over
$500.00 must be in writing and signed by the putties
bound by the contract.

-

''

In this case, Statue of Frauds apply to plantiff's
alleged cldims of breach of contract as to CRUZ and
LIEUTENANT DAN which must have been in writing and
signed by both parties bound by the contract.
According to Pattern Instructions for Kansas

'

(PIK Civ 3d) the essential elements required to
sustain an action for fraud are;
(1) that falser (Or- untrue) representations were made
as a statement of exsisting and material fact,-' (2)
that the representations were known to be false' (Or
untrue) by the party making them, ■ bf-were recklessly
make without knowledge concerning them,-' (3) that the
representations were intentionally made for the
purpose of inducing another party to act- upon them,
(4) that the other party•reasonably relied and acted
upon the representations made, and; (5) that the other
party sustained damage by relying on them. PIK CIV 3d 127 40.
In 'this case the judicial machinery has been tainted
by Respondent's sworn AFFIDAVIT (by and through counsel),
dated 2/23/18 that a contract exsisted between the two
parties relating to the sale of CRUZ & LIEUTENANT DAN, and
that the contract was breached,^add the basis for jurisdiction.

14.

Petitioner requests issuance by this Court of an
extraordinary Writ of Mandamus, not as a matter of
right, but of discretion sparingly exercised.

To

justify the granting of the writ, the petition
has shown that it will be in aid of this Court’s
jurisdiction, that exceptional dircumstances warrant
the exercise of this Court's discretionaly powers, and that
that adequate re'flief cannot be obtained in any other
form or from afiy other court.

InDChehey et al v U.S. Cist Ct for the D.C. Circuit,
542 US 367 (2004),Ufchd Q6urt held @ 2(a), Mandamus
is a "drastic and extraordinary remedy"
reserved for extraordinary causes." Ex
parte Fahey 332 US 258 259-260.
While the conditions for obtaining it
may be demanding, they are not insuperable.
The Court in its MemoranduirTOpinion pg 2, (APX A)

cites

K.S.A5. 2019 Supp 60-2101 (a) (4) allowing the court to
3.
review alfifial decision and cites Kansas Medical
Mut Ins Co v Scaty, 291 Kan 597, 610, 244 P 3d 642 (2010).
The phr.afee "final decision" is self defining and
refers to an order that definitely^ terminates a
a right or liability involved in an action or that
grants dr refuses a remedy as a terminal act in the case.
Allison v State, 56 Kan App 2d 470, 475, 432, P 3d 87 (2018).
In AHilison, this case was dismissed without prejudice
until "we have a final decision from the District Court
in K.S.A. 60-1507."

15.

f

Rule 183-Procedure under K.S.A. 60-1507 involves
Habeas Corpus Motion and poverty- Affidavit.

Not

applicable in this case.
As the syllabus in Allison states,

the 'cat&S' was

dismissed WITHOUT PREJUDICE until a final decision
from the District Court,

Due process further

impeached when the case was not dismissed without
prejudice and until "we have a final decision from
the District Court.in K.S.A. 60-1507."
In this case, the Court returning to the District Court
Petitioner’s cross claim for a final decision for the
District Court.

(APX D, pg 1 &(APX A Memorandum &

Opinion, pg 2). /
Petitioner seeks £n order from this court to the.Supreme
Court State of Kansas to fullfill their official duties and
correct the abuse of discretion under the extraordinary
writ of mandamus.

Order (APX D, pg U, inviting
3. The “Show Cause
HrvHh Petitioner & Respondent to Show Cause
as to a "final decision" also impeaching due process
when citing Allison v State, a
dismissed without prejudice until afinial
was
Then in the
decision from the District Court.
(APX A) applied the Allison
™“y0K“t returning
the case to the
'
District Court so Petitioner could prosecute
the cross claim, but dismissing the appeal.
16.

\

}1

I

CONCLUSION

. i "The petition for an extraordinary Writ of Mandamus
should be granted.

Respectfully si

d,

7

Date:

.8/23/21

